•

1

i

I

SI IS

V

\

\

'■No.

Supreme Court, U.s"
FILED

IN THE .

/

APR 1 3 2021

SUPREME COURT. OF THE I IMITPri QJAJpqL. OFFiCEOFTHPri cnr

Joseph Miller
:

petitioner

(Your. Name)

\.

.vs,'
:

United States of America
RESPONDENT(S)

.. — ^

i: .

.... , _ . . .

-

,r!r~:z

QN-PETITION • p OR-A' W RiT O FX E R' f l-ORAR1' T0
./

•!

Seventh Circuit Court of Appeals-.

w

t

■ (NAME OF COURT THAT .LAST RULED ON MERITS OF YOUR. CASE).
PETITION FOR WRIT OF CERTIORARI
;

• ' , • ••

■.

:•

Joseph Miller.
(Your Name)

P.O. Box 5000
(Address)

•.

Greenville,.Ill 62246
(City, State, Zip Code)

(Phone Number)

RECEIVED
APR ! 3 2021

QUESTIONS PRESENTED FOR REVIEW
I.
As a matter of first impression in this court, pursuant to Supreme Court Rule 10(C), does
an attorney’s failure to advise his client of the adverse ramifications of raising any claims of IAC
on direct appeal constitute the substantial denial of a constitutional right, debatable among jurist
of reasons, as contemplated by this court’s decision in Slack v. McDaniel, 529 U.S. 473 (2000),
particularly when the district court failed to conduct an evidentiary hearing to resolve the issue,
where petitioner had material evidence showing that his attorney never consulted with him, in
. that regard?
II.
Does the Seventh Circuit’s denial of Miller’s request for a CO A, grounded in Miller’s
contentions that the prosecution failed to timely disclose its'Use of fabricated evidence hi search
and arrest warrants, constitute an issue debatable among jurist of reason, pursuant to Slack v,
McDaniels, the substantial denial of a constitutional right, and most importantly, does this
decision conflict with this court’s decision in Brady v. Maryland, 373 US, 83, so as to warrant
the grant of certiorari by this court under Supreme Court Rule 10(C)?
III.
Does the Seventh circuit’s denial of Miller’s request for a Certificate of Appealability on
two separate pre-trial, 4th and 5th Amendment, IAC issues—one citing Brown v. Illinois, 422 U.S.
590 (1975) and the other, Franks v. Delaware, 438 U.S. 154 (1978)—constitute decisions
debatable among jurist of reason, pursuant to Slack v. McDaniel, and moreover, substantially
conflict with this court’s decisions in Kimmelman v. Morrision, All U.S. 365 (1986), so as to
warrant the grant of certiorari by this court under Supreme Court Rule 10(c), particularly when
the information utilized in the search and arrest warrants were derived from undisclosed,
fabricated information and evidence in violation of Bradyl
1

1

LIST OF PARTIES

[x] All parties appear in the caption of the case on the.cover page. .
C ] til^■ie%d0^0t HPPear in the Caption of the case °n the cover page A list nf
pe^onS “ ^eeding ^ the C°mt
sSfe'ct

“iv.e.et::::"

—*r

»

■

i

TABLE OF CONTENTS

OPINIONS BELOW...,..'.................... ..........

.... 2

JURISDICTION....................................
....2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
2
STATEMENT OF THE CASE....................

3-13
REASONS FOR GRANTING THE WRIT
14-38
CONCLUSION............................
..... 38

INDEX TO APPENDICES

Appendix B, 2255 opinion.
Appendix C, Detective Detterline's Affidavit for Search Warrants (cell phone records).
Appendix D, Search warrant affidavit.
Appendix E, Arrest warrand affidavit.
•

’

Appendix F, Grand Jury Transcripts, pgs. 5, 13-14, 17-19.
Appendix G, FBI 302 (Hoffman).
Appendix H, FOIA request to HIDTA (regarding enhancement).
Appendix I, FOIA response from HIDTA.
. Appendix J, Emails to Appellate Counsel (Kupsis), 12/22/14; 3/2/15; 3/16/15.
Appendix K, FOIA request to HIDTA (Ken Forsythe).
/Appendix L, FOIA response.

Appendix M,

Digital &7idence Fblicy Guide, 3.3.5 - 3.3.S.2, § 1.2
4pendix N, Trial. Transcripts 270-71, 290-291, 316.

ii.

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES'

Accardi v. Shaughnessy, 347 U.S. 260 (1954).....................
Brady v. Maryland, 373 U.S. 83 (1963)...........1................ ..........
Brumley v. Godines, 1995 U.S. Dist LEXIS 8725 (N.D. Ill 1995)
■ Brendlin v. California., 551 U.S. 249 (2007)..................
Bruce v. U.S., 256F.3d 592 (7th Cir. 2002)..... ..............
Buck v. Davis. 137 S.Ct. 759 (2017) ............ ...............
Franks v. Delaware, 438 U.S 154 (1978)....:..................
Gunner v. Welch, 749 F.3d 511 (6Ul Cii\ 2014).........
Kimmelman v. Mom son, 477 U.S. 365 (1986)....!........
Miller-El v. Cockrell. 537 U.S. 322 (2003)...................
. People v. U.S.. 403 F.3d 844 (7th Cir. 2005)..................
Slack v. McDaniel. 529 U.S. 473 (2000)............... ......
. Strickland v. Washington, 466 U.S. 668 (1984)............
Taylor v. U.S., 287 FJd 658 (7th Cir. 2002).................
U.S. v. Bagley, 473 U.S. 667 (1985)............. ...............
U.S. v. Miller, 795 F.3d 619 (7l” Cir. 2015).... ......'.......
U.S. v. Flores, 739 F.3d 337 (7th Cir. 2013)...............
....
.. ..U.S. v, Johnson. 308J'ed..Appx, 768 L5*Cir;..2p09).,,t,;
LFS. v. Tumo-Aree-i 44 F,3d 1420(-94-Cir. 199-5);.
....,,,,<,•....•.22—
U.S. v; Morris. 80 F.3d 1151 (7,h Cir. 1996)....'........................
U.S. v. Linder. 2013 U.S. Dist. LEXIS 29641 (N.D. Ill (2013)
U.S. v. Wilson. 237 F.3cl 827 (7lh Cir. 2001)....... ‘...............
U.S. v. Vincent. 416 F,3d 593 (7th Cir. 2005)..........................
U.S. v. Longmire. 761 F.2 411, (7th Cir. 1985)... ..........
■ U.S. v. Villegas,495 F.3d 761 (7th Cir. 2007)....'.....................
U.S. v. Reed, 349 F.3d 457 (7th Cir. 2003)..............................
U.S. v. Carter. 573 F.3d 418 (7th Cir. 2009)............ ,............
STATUTES AND OTHER RULES

25
....15,22
.,..18.19
29
20

14, 15; 18
......15,36
...... 18, 19
.15.28, 36
18
10. 14. 16
....14, 15
19
:20

......12, 17
14. 16, 17
......18. 19
22
23
23
27

29,35
30
a 1

D 1

*■>

34

15. 18
14, 15
passim

28 U.S.C. 2253(c).......................
Supreme Court Rule 10(h) & (c).
28 U.S.C. 2255 ... '........’.............

iii.

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari be issued to review the judgment
below.
OPINIONS BELOW
The opinion of the United States Court of Appeals. For the Seventh Circuit appears at
Appendix A to the petition and is unpublished.'
JURISDICTION
The Date on which the United States Court of Appeals for the Seventh Circuit decided
petitioner’s case was September 25,2020. On January 3, 2021, a petition for rehearing was filed,
which was denied on February 1,2021. An extension of time to file a writ of certiorari was .
granted to and including Mafchl O, 2021, befoib denial of the petition for rehearing was denied
’ V

■

by the Seventh Circuit.
CONSTITUTIONAL AND STATUTORY PROVISONS INVOLVED
The Fourth Amendment to the U.S. Constitution states in pertinent part: “The Right of
the people to be secure in their persons, house. ..against unreasonable searches and seizures, shall
not be violated, and no Warrant shall issue, but upon probable cause, supported by Oath or
Affirmation and particularly describing the place to be searched, and the persons or things to be
seized.”
The Fifth Amendment to the U.S. Constitution states in pertinent part: “NO person shall
be... deprived of life, liberty, or property without due process of law... ”
The Sixth Amendment to the U.S. Constitution states in pertinent part: “In all criminal
prosecutions, the accused shall.. .have the assisflhce of counsel for his defense.”

2

v;T.
it
STATEMENT OF CASE
' In January 2012, Miller was charged by way of complaint with one count of Bank
Robbery and later indicted on the same charge several days later. Miller proceeded to trial by
jury on June 24, 2013 and was found guilty by a jury on June 25, 2013 on the bank robbery

; if

count.

On July 12, 2013, Miller filed a pro-se motion for hew trial based primarily upon his
attorney’s ineffectiveness. After being appointed counsel, an amended Rule 33 motion for new
trial was filed. A hearing was held on May 21, 2014 regarding Miller’s new trial motion. On
June 12, 2014, the trial court denied the motion. Miller was sentenced on August 1, 2014 to a
225 -month tern of imprisonment, 3 years of supervised release and an order of Restitution in the
^Qim^£.^5^0.d.a^.ia^peci^aMes^epdijfMpOf_ J

"".‘.'s:

' r.

Miller directly appealed his sentence and conviction to the Seventh Circuit Court of
Appeals. The Seventh Circuit affirmed. Thereafter, Miller filed a timely petition for rehearing en
banc, unsuccessfully, then a writ of certiorari. The certiorari was denied on February 29,2016.
On February 27, 2017, Miller filed a 2255 motion in the Northern District of Indiana. On
October 21,2019, the district court denied that motion. See Appendix B (“App.__”). On
•

December 10, 2019, Miller filed a timely notice of appeal.

•

•

Miller timely filed an application requesting a Certificate of Appealability (“COA”) to
the Seventh Circuit raising several claims. On September 25, 2020, the Seventh Circuit denied
Miller’s COA, summarily, without issuing an opinion. This Writ of Certiorari followed.
(A). Arrest and Indictment
Miller was arrested on Jail 5, 2012 and later charged with one count of Bank Robbery in
violation of 18 U.S.C. 2113(a).

3

Events leading up to Miller’s arrest started out with a search warrant formulated by
Detective M. Detterline (A Hammond Indiana La w Enforcement official) to secure records of a
phone believed to be owned by Miller (App. (C) December 23, 2011 search warrant).
Detective Detterline’s affidavit stated: ■
During the course of this investigation; affiant was informed that AMTECH Pro
Audio located at 7033 Calumet, Ave., Hammond, Lake County, Indiana had video
surveillance of the suspect and the vehicle that was used... On December 21,
2011, affiant spoke to FBI Agent Michael Peasley who informed affiant that
HIDTA analysis Ken Fortsythe was able to enhance the registration plates on the
vehicle used by the suspect in tire bank robbery of Standard Bank on December
13, 2011. This vehicle was a Blue 1998 Ford Utility with an Illinois registration of
L429151, expiring 6/2012 and VIN # 1FMZU34EOWUC17967. The.
individual(s) registered to this vehicle are Joseph B. Miller and Tena E. Miller,
105 S. Ashland Ave., Chicago, IL, 60607.
App. C
On January 4, 2012, Special agent Michael Peasley (“Agent Peasley”) filed an
application and affidavit for a search warrant, specifically, for a 1998 Ford Explorer that
belonged to Miller, See App. D, annexed hereto, 1/4/12 search warrant. In that search warrant,
on pg. 4,

9, Agent Peasley made reference to an analyst at Lake Count High Intensity Drug

Trafficking Area (“HIDTA”) task force who “Enhanced a part of the copy of the (AMTECH)
video and was able to discern the vehicle’s license plate number” but never identified “Ken
Forsythe” as being the analyst, as was done in Detterline’s affidavit.' See App. D.
On January 5,2012, Agent Peasley along with several armed FBI Agents and local police
arrived at the house where Miller resided to “execute the warrant on his truck.” When Miller
•U
came to the door at Agent Peasley’s request, Miller was forced to turn around and cuff up and
placed under arrest for the Bank Robbery offense, against his will and taken into custody (Trial
Transcript [“Tr.__”] at 316 without Agent Peasley having a warrant for his physical arrest. App.
(N).
Miller was taken to the Lansing Police Department where he “allegedly” confessed to the.
bank robbery—a confession that the government described as “not full-fledged” at a subsequent
■" '4
A

detention hearing (Detention Hearing [“Dt.Hr.__”] at 6). On January 6, the following day an
arrest warrant was then issued for Miller baseddii a purported confession even as Miller had
already been arrested and was in custody, based on the surveillance evidence purportedly
enhanced by HIDTA. See App. E. annexed hereto, arrest warrant.
On January 12, 2012, Agent Peasley appeared before the grand jury to testify about the
-\

evidence he gathered against Miller surrounding the bank robbery. See App. F. annexed hereto,
grand jury transcripts, At that hearing, Agent Peasley testified in pertinent part that (1) Bank
Teller Judy Tauber (“Tauber”) essentially identified Miller as the culprit who robbed the bank
from a photo line-up; (2) Agent Peasley was unable to read the license plated number; (3) He
(Peasley) sent the AMTECH evidence to HIDTA to be enhanced, at which time HIDTA was able
to extract Miller’s license plate number off the still photos; (4) Bank Teller Pakama Hoffman
(“Hoffinari’’} courd hotldehfify Miller as the bank robber because Hoffman did nbtimb wlEat the ~
v-':

bank had actually been robbed until afterwards;’and (5) Miller confessed to the bank robbery.
.>

App. F. pgs. 5,13-14,17-19.
(B). Pre-Trial proceedings.

Miller filed a motion for leave to conduct witness depositions (Docket #26. “R.__”).
Miller’s concern was that Agent Peasley mischaracterized the testimony of one of the bank
clerks, Tauber, as to her identification of him as the bank robber. A conference was setup
.

'

■

-A

'

between Miller’s attorney, the government and Ms. Tauber, at which time (she) Tauber,
indicated she disagreed with the agent’s reports! More specifically, she stated that, at no time did
she say that die courier or Miller resembled die bank robber, at all. (R. 28) Miller’s motion was
denied.

5

Miller, again, subsequently met with hjs attorney, Mr. Tavitas, briefly discussing issues
concerning his case. Thereafter, Miller did not meet or speak with Tavitas until six months later,
a week prior to trial, which was ultimately commenced on June 24, 2013 T
(C). The Trial.
OnDecember 13* 2011, the Standard and Bank Trust, located at 7007 Calmet Ave., in
Hammond, IN was robbed sometime between 9;30 and 10:30 in the morning (Tr. 116). Hoffman
and Tauber were working as tellers that morning. Hoffman was the teller supervisor. (Tr. 116117).
Tauber died prior to trial as a result of circumstances unrelated to the case (Tr. 117).
Hoffman testified that an individual handed Tauber a note which Hoffman originally thought
was a check. She later learned that it was a bank robbery note instructing Tauber to give the
robber-the money (Tr. 120). The absence of Taiiber as a witness for the government was
significant, in that, Agent Peasley testified at the grand jury proceedings that Hoffman didn’t
even know that the bank was being robbed, at all, until after the fact—after the crime was
committed. See App. F, Peasley’s grand jury testimony, pgs. 5-6. Hoffman testified that, she did
not realize that the bank was being robbed until.she seen Tauber handing over the money.. .at
which time the robber left the bank and exited to the left in the direction of a surveillance
company named AMTECH (Tr. 126).
On December 21, 2011, in a 302 report prepared by FBI Agent Peasley, Hoffinan, after
briefly reviewing photos given to her by law enforcement officials, stated she could not identify
the bank robber, at all. App. G, 302 statement. Nevertheless, at trial, Hoffman positively
: A

TBy this time, the government had already released all Brady and Jencks material. Crim. Doc. 46. In that pre-trial
disclosure, the government released a 302 document entitled "working copy" a 302 in relation to HIDTA's alleged
participation in an "image refinement" of surveillance footage that the government sought to utilize as evidence
against petitioner at trial. The document states that HIDTA staff "conducted an image refinement" of a still image
from the video and "contacted agents to indicate they had obtained the licenses plate from the video and could
see it was L429151, Illinois." See App. G, copy of working order annexed hereto. The license plate number to the
1988 Ford Explorer that was registered to Miller, and suspected of being used as the getaway car in the bank
robbery.
6
V'

identified Miller as the bank robber (Tr. 130). Hoffman testified prior to that moment that she
had not been able to identify Miller as the bank robber through any picture or any other way and
had never seen him in person before testifying that day. (Tr. 149).
Agent Peasley also recovered a separate1 surveillance video that was taken outside the
AMTECH building. (Tr. 275). The AMTECH surveillance video showed an individual dresSed
in-a similar fashion as the bank robber entering an older model SUV (Tr. 276). Agent Peasley
was able to produce still photos, which depicts the area in which the license plate was located on
the getaway vehicle. (Tr. 277). Agent Peasley further stated that he was able to read all but one.
of the digits on the license plate affixed to that vehicle; and that “he” was able to attach the
license plate number to a vehicle owned by Miller and his mother, Tena (Tr. 277-279).
Agent Peasley also testified that Miller—although not wholeheartedly—: allegedly .
confess to the robbery (Tr. 299-303). He (Peasley) was forced to acknowledge that.Miller.’s ..
alleged statement was merely a document in a 302 form, but was never recorded, video, audio or
otherwise for the purposes of verifying if Miller, in fact, made the said confession (Tr. 313).
The case was ultimately submitted to the jury. Miller was found guilty of the offense.
(D). Hearing on motion for new trial.

a

Represented by a new attorney, Mr. Visvalidis Kupsis (“Kupsis”), the district court held a
hearing in Miller’s motion for new trial under Rule 33, alleging IAC. More specifically, Kupsis
raised 3 'claims of IAC. First, he argued that trial counsel Was ineffective for failing to make a
confrontation clause objection to testimony at trial by Agent Peasley identifying Miller’s vehicle
as being near the scene of the bank robbery.
Second, Miller contended that counsel should have cross-examined Agent Peasley at
Trial concerning a portion of Peasley’s affidavit in support of the criminal complaint, in which
Peasley recounted having showed a photo line-up to. Tauber, which turned out to be a factually
incorrect identification of Miller.

7

Third, Miller argued that counsel was ineffective for failing to call two witnesses to rebut
the government’s evidence that he was having financial problems and therefore had a motive to
commit the robbery. As a result of counsel’s amended motion, the district court conducted an
evidentiary hearing. During the hearing, Peasley was again questioned about his ability to
identify the license plate number. Peasley testified that he sent the surveillance footage to
HIDTA; However, he did not know how HIDTA actually received the video: (by mail, or
otherwise) and did not know the process of technology utilized by HiDTA to enhance the
i

surveillance footage and did not know who allegedly enhanced the video at HIDTA and he
(Peasley) was not a computer expert; and that HIDTA’s (alleged) enhancement of the
surveillance footage assisted him in determining the license plate number on the truck (Tr. NTH
69-74).
Agent Peasley also admitted during his testimony at the hearing that his testimony atjrial ;
was inaccurate in relation to Miller’s bank account being overdrawn by $700. Rather, Peasley
stated that he was looking at the day of January 13, one month after the robbery, when he
determined the account was overdrawn by $700 (Tr. Nth 76).
Miller’s trial attorney, Tavitas, testified at the hearing. He acknowledged that the license
plate evidence was a strong piece of evidence and that, if the defense were to concede that the
vehicle belonged to Miller, it would be easier for the government to prove its case (Tr. NTH 19).
I;

Tavitas, when questioned in regard to the alleged confession provided to Agent Peasley Miller,
7

mdicated that Miller’s statements were not a full blown confession and that no video or written
statement existed in regard to this alleged, confession (Tr. NTH 20). He acknowledged that die
confession rested on Peasley’s word alone.
Tavitas also acknowledged that, in light pf Miller’s alleged confession, Tavitas did not
have any particular reason as to why he did not try to impeach Agent Peasley with his
mischaracterization of Ms. Tauber’s testimony—in conjunction to admitting that Tauber’ s non-

8

f

identification of Miller was a “big piece of [exculpatory] evidence”. (Tr. NTH 21, 56). Tavitas,
however, asserted that, to bring in the Tauber evidence would essentially constitute bringing in a
second ID of Miller (in conjunction with Hoffman’s post hoc, in court identification) (Tr. NTH
66).
At the conclusion of the hearing, the district court heard arguments from both sides, via
briefing. On June 12, 2014, the district court ultimately denied Miller’s motion for new trial,
finding that Miller failed to show Tavitas provided IAC in any of the three ways asserted by
Miller via Kupsis’s amended motion.
(E). Sentencing.
On September 15,2014, the district court imposed a 225 month term of imprisonment
upon Miller, three years of supervised release) and restitution in the amount of $5606 with a
*: t „•

special assessment.bf$1GCL- ■
(F). Direct appeal proceedings.
Miller, convinced that the HIDTA/AMTECH photo stills (concerning the plate number)
were highly suspect, was based upon Agent Peasley’s false and vague testimony concerning how
the video enhancements were actually conducted and by who as there was no chain of custody
document ever submitted by the government. Miller filled a F OIA request to HIDTA, making an
explicit request in reference to precisely what type of tests were conducted on the surveillance
evidence hi Miller’s case, and by who. See App. H, copy of a FOIA request. Miller was
endeavoring to discern, by his request, the validity of the process utilized by HIDTA and the
chain of custody in relation to the evidence (i.e., who had what, when and how the evidence was
handled).
HIDTA subsequently responded to Miller’s request. Therein, in response to each of
Miller’s specific inquiries concerning then handling of the evidence in Miller’s case, a
representative of HIDTA stated:

•
£■

_•

HIDTA does not maintain or possess any public records of photos or documents
described in your request. HIDTA does not maintain or possess video footage and
still as described in your request. HIDTA does not maintain or possess any
records relating to your request for a “chain of custody evidence” HIDTA does
not maintain or possess any record of information regarding the testing as
described in your request. HIDTA does not maintain or possess any information
regarding any communications regarding any communications by phone, fax,
email or otherwise as described in your request.
See App. I, copy of HIDTA response.
Armed with this new intel—that HIDTA never dealt with or handled the surveillance
evidence in Miller’s case—Miller transcribed several letters to appellate counsel, Mr. Kupsis,
putting him on notice of HIDTA’s response to his FOIA request. Miller'also requested on several
occasions (via phone, when Miller could actually get in touch with Kupsis, letters and emails)
that Kupsis raise, inter alia, a due process challenge to the chain of custody regarding the
AMTECH evidence pursuant to HIDTA never handling this evidence. See App. J, emails dated
i 2/22714 and 3/16/15. '
Miller, via email, again advised Kupsis that he never confessed to any crime. See App. J
email of Miller to Kupsis, dated 3/2/15. On one .of the rare occasions that he (Miller) did catch
. him (Kupsis) in his office, he advised Kupsis to be sure to allow him to see the appeal brief
before it was filed in the court. See 3/16/15 email, App. J.
Significantly, although Miller was able to gamer a general understanding, based upon his

effectiveness of Miller’s trial attorney on direct appeal in some context... Kupsis never, at any
time, discussed the ramifications of proceeding bn Direct Appeal with any claims of LAC
without, for example the record being developed enough to bring all claims of IAC against his
trial attorney. That, pursuant'to controlling Seventh Circuit precedent in People v. U.S., 403 F.3d
844, 847-48 (7th Cir. 2005), for example, Miller would essentially, for the most part, be barred
from challenging other aspects of his trial attorney’s ineffectiveness in a collateral attack on his
•conviction and sentence if he moved forward with any claims of IAC on Direct Appeal.
10

Against this backdrop, Mr. Kupsis did, ip fact, raise claims of IAC on direct appeal, filing
the opening brief without even allowing Miller to review it. More specifically, Kupsis raised two
claims on Direct Appeal in relation to Miller’s conviction. The first claiih dealt with whether or
not the trial court erred when it determined that Agent Peasley’s false testimony as to the
determination of the license plate numbers and bank account balances was harmless and did not
impact Miller’s right to a fair trial. Incorporated into this argument was a perjured testimony
claim surrounding Peasley testifying to the identity of the vehicle as belonging to Miller.
Second, Kupsis asserted that counsel’s; representation of Miller was ineffective for 3
reasons. First, counsel failed to properly object to the in-court identification of Miller at trial by
Hoffman. Second, counsel failed to impeach Peasley with the fact that he had previously
mischaracterized the testimony of Tauber,-the deceased teller, as identifying Miller. Third,
counsel failed to correct Agent Peasley s inaccurate testimony as to Miller s bank account
balance.
After receiving the brief, Miller wrote several emails and letters to Kupsis concerning •
issues that were not raised, that Miller wanted to raise on appeal, eg., among other things, a
challenge to the chain of custody. See App. J, copy of email from Miller, dated 3/16/15. Miller
also made it clear that he wanted to see a copy of the reply brief before it was filed by Kupsis.
> 'y'i

Furthennore, Miller unsuccessfully sought permission to file a supplemental appeal brief to the
Seventh Circuit, raising claims that he, himself(Miller), wanted reviewed by the court.
Specifically issues counsel failed to raise pertaining to the chain of custody of the AMTECH
evidence.
Again, Kupsis ultimately filed the reply brief (to the government’s response) without
.A-'-' .
...
.
consulting or allowing Miller to review the said"pleading. Miller, again, transcribed a letter to
Kupsis elaborating upon the fact that Kupsis failed to speak and confer with him before filing the
initial brief, then failed to allow Miller to see the reply brief before it was filed as he was asked ,

11

to do; Miller again, spoke on how Kupsis failed to raise claims that Miller wanted raised on •
appeal. See App. J, copy of 3/16/15 letter to Kupsis.
Subsequent to briefing by both parties, oral arguments were granted by the Seventh
Circuit. It was at this point that Kupsis misled the Seventh Circuit Court of Appeals, by asserting
that he advised Miller of the ramifications of proceeding on Direct Appeal with any claims of
IAC. See oral arguments, Appeal No 14-2779. This is Miller’s contention, and swears under
penalty of perjury that Mr. Kupsis did not do. After oral arguments. Miller’s case was submitted
to the court for issuance of a decision.
(G). Decision by the Seventh Circuit.
On July 22,2015, the Seventh circuit issued a decision affirming Miller’ conviction and
sentence. See U.S. v Miller, 795 F.3d 619 (7th Cir. 2015).
In short, MiUsr raised Three .claims on appeal: (1) Agent Peasley presented perj ured

-'.:rr “

testimony in relation to his description of who was responsible for sharpening the image on the
AMTECH evidence to identify the license plate number; (2) Agent Peasley’s perjured testimony
■ surrounding Miller’s bank account being overdrawn; and (3) a claim of IAC, asserting that
.; :_Y ,

.

Tavitas was ineffective surrounding the in-court identification of Miller. See Miller, 795 F.3d
619-623. The Seventh Circuit, in deciding Miller’s case, acknowledged that a series errors did
occur in relation to the trial proceedings and TaVitas’s representation of Miller. All of the said
errors, however, were either “harmless,” “negligible” or did not “prejudice” the outcome of the
proceedings. The Seventh Circuit, thus, affirmed Miller’s conviction and sentence.
(H). 2255 motion and proceedings in the Seventh Circuit thereafter.
In February 2017, Miller filed a timely 2255 motion in the district court. (R. 144). He
also filed two supplements to that 2255 motion (R. 155 and 157).- Cumulatively, Miller raised
■ 2 The supplement, Civil Doc. 157, was filed as a result of new information Miller acquired from Kupsis in May 2018.
More specifically, in the latter part of 2017 on up through the first part of 2018, Miller was corresponding with
Kupsis, trying to obtain any Brady/Jencks material Kupsis had in his possession in relation to Miller's case file. It
. was at this time that Kupsis sent Miller a copy of Detterline's search warrant affidavit. Upon reading Detterline's

: 12

several claims in his 2255, including, but not limited to (1) Kupsis was ineffective for failing to
consult with, and advise Miller of the adverse ramifications of raising any claims of IAC on
Direct Appeal; (2) two claims of IAC surrounding Tavitas’s failure to investigate and raise two
separate Fourth Amendment challenges to the admission of Miller’s alleged confession (and,
yv

■

_

incorporated into that claim, a Due Process claim surrounding the fabrication of evidence); and
(3) Brady v. Maryland, 373 U.S. 83 (1963) claim concerning the prosecution’s withholding of
material evidence, the existence of fabricated evidence perpetrated by Agent Peasley, a member
of the prosecutions team. Id. R. 144,155 and 157.
On October 21, 2019, the district court issued an order denying Millers §2255 motion,
and denied a COA without conducting an evidentiary hearing. App: B. In doing so, the district
court repeatedly misapprehended, and misconstrued the underlying basis of Miller’s arguments,
. and ignored relevant parts of the record and documentary evidence attached' to Miller’s 2255 .
motion and supplemental pleadings that materially support Miller’s claims that, if proven true,
would entitle him to relief from his conviction.
Miller filed a timely notice of appeal, and COA to the Seventh Circuit Court of Appeals,
in December, 2019. On September 25, 2020, the Seventh Circuit issued an order summarily
denying Miller’s COA, without transcribing a written opinion. On or about January 3, 2021,
■

•

■

j

Miller filed a petition for rehearing, rehearing en banc. On February 1, 2021, the Seventh Circuit
issued an order denying that petition. This Writ of Certiorari followed.

affidavit, Miller discovered, for the first time, that Peasley identified that analyst at HIDTA as "Ken Forsythe". From
there, Miller filed another FOIA to HIDTA asking them if they had any information on an employee by the name of
Ken Forsythe who worked for their organization between the years of 2011 and 2012. See App. K. HIDTA
responded on 5/30/18 stating that they never employed and have no information on or about anyone named "Ken
Forsythe". See App. L, HIDTA FOIA response. That FOIA response formed the underlying basis of the second
supplemental motion, Civil Doc. 170, raising additional'4rady claims, claims of IAC and Franks v. Delaware.

13

II.
REASON FOR GRANTING WRIT
This court should grant Certiorari for three intricately related reasons. First, (his court
should decide, as a matter of first impression pursuant to Supreme Court Rule 10(b), whether an
attorney has an affirmative duty to consult with his client surrounding the adverse ramifications
of raising any claims, of ineffective assistance of counsel (“IAC”) on Direct Appeal, and clarify
i L:

whose choice it is to decide whether to raise IAC claims on Direct Appeal: The Attorney or the
■y

Defendant?
Here, based on tire fact that Miller has documentary evidence (in conjunction with the
sworn allegations in his §2255) in support of his position that his appellate attorney never
advised him of tire ramifications of raising any IAC claims on Direct Appeal pursuant to People
..... ,v. D.5;, 403 F.3d 844, 846 (7the Cir, 2005) and (/A y, Florey 739 F.3d 337, 341 (7th Circ.
2013), compared to appellate counsel’s contentions to the Seventh Circuit during oral arguments
(on Miller’s Direct Appeal) that he did advise Miller of such ramifications(2) jurist of reason
could debate that this material dispute in the record, concerning Miller’s failure to consult
claims, warrants an evidentiary hearing (3) or is adequate to deserve encouragement to proceed
further” Slack v. McDaniels, 529 U.S. 473, 483-04 (2000), contrary to the Seventh Circuit’s
summary dismissal of Miller’s COA on this claim—which essentially disregarded this court
exhortation in Buck v. Davis, 137 S.Ct. 759 (2017) that “The [COA] inquiry.. .is not co-extensive
with, a merits analysis.”
Intricately related to the resolution of this failure-to-consult claim is the manner in which
, the district court ruled on the merits of the remainder of Miller’s IAC claims. In sum, based on
the resolution of Miller’s failure-to-advise claim, jurist of reason can debate whether the
remainder of Miller’s IAC claims against his pre-trial and trial attorneys are procedurally barred.

14

Second and for example, jurist of reason would agree that the Seventh Circuit’s decision
summarily affirming the district court’s denial of Miller’s COA conflicts, overwhelmingly, with
this court’s decisions in Brady v. Maryland, Kimmelman v. Morrision, 477 U.S. 365 (1986) and
Franks v. Delaware, 43 8 U.S 154 (1978), Warranting the exercise of this court’s supervisory
authority under Supreme Court Rule 10(c).

i

On the former front, Miller presented evidence that Agent Peasley, a member of the
“prosecution’s team” failed to disclose the fact that he fabricated the information about HIDTA’s
\

handling of the AMTECH evidence in .several documents, including Detterline’s affidavit, Ins
(Agent Peasley’s) search warrant affidavit, Peasley’s arrest warrant and Peasley’s grand jury
testimony, information that was surely “impeaching” and “Material” to the outcome of not just
r

-

tire trial, but also, three pre-trial motions Millercould have filed challenging evidence presented
/

■

by, the government m its case.'■

..

On the latter front, Miller presented evidence that Agent Peasley did not have an arrest
warrant at the time he seized Miller, but only a search warrant for Miller’s truck; and that
Peasley presented fabricated evidence in two search warrants and an arrest, and this false
.

v

information was provided to a judiciary with a “reckless disregard for the truth” in violation of
Franks v. Delaware, supra, in order to obtain those warrants.
This court should thus grant Certiorari pursuant to Supreme Court Rule 10(b) & (c) for
the purposes of answering a legal question of first impression in this court and also, assuring that
the decisions issued by the Seventh Circuit maintains uniformity with the decisions of this court.
Standard of Review
28 U.S.C. §2253(c) permits the issuance of a COA only where a petitioner made a
“substantial showing of the denial of a constitutional right.” Slack v. McDaniels, 529 U.S.
473,483-84 (2000). Significantly, this court, inBuckv. Davis, 137 S.Ct 759, 773 (2017) clarified
that “[T]he [COA] inquiry.. .is not coextensive with a merits analysis. At the COA stage, the
.v-

•i

15

.

only question is whether the applicant has shown that “jurist of reason could conclude the issues
presented are adequate to deserve encouragement to proceed further.” (citing Miller-El v.
Cockrell, 527 U.S. 322, 336 (2003)). Id.
Summarizing the requirements for issuance of a COA, in Miller-El v. Cockrell, this com! stated:
“The COA determination under 2253(C) requires an overview of the claims in the
habeas petition and general assessment of their merits... A COA does not require a
showing that the appeal will succeed. Accordingly, a Court of Appeals should not
decline the application for a COA merely because it believes the applicant will
not demonstrate an entitlement to relief... We do not require petitioner to prove,
because issuance of a COA, that some claims would be debatable even though
every jurist of reason might agree, after the COA has been granted and the case
has received full consideration, that petitioner will not prevail.”
Id. At 336-338
“A COA does not require a showing that the appeal will succeed...” should be kept in
mind when examining the legal validity of the Seventh Circuit’s decision to summarily affirm
a

the district court’s denial of Miller’s COA
A.
AS A MATTER OF FIRST IMPRESSION IN THIS COURT, DOES AN ATTORNEY’S
FAILURE TO ADVISE HIS CLIENT OF THE ADVERSE RAMIFICATIONS OF
RAISING ANY CLAIMS ON IAC ON DIRECT APPEAL CONSTITUTE THE
SUBSTANTIAL DENIAL OF A CONSTITUTIONAL RIGHT, DEBATABLE AMONG
JURISTS OF REASON, AS CONTEMPLATED BY THIS COURT’S DECISION IN
BUCKV DAVIS, 137 S.CT 759 (2017) PARTICULARLY WHEN THE DISTRICT
COURT FAILED TO CONDUCT AN EVIDENTIARY HEARING TO RESOLVE THE
ISSUE, WHERE MILLER HAD MATERIAL EVIDENCE SHOWING THAT HIS
ATTORNEY NEVER CONSULTED WITH HIM IN THAT REGARD?

The underlying basis of Miller’s claim here is that Kupsis.failed to advise him that,
pursuant to controlling precedent in this circuit that, “ [ineffective assistance of counsel is a
Single groundfor relief no matter how many failings, the lawyer may have displayed.” People v.
U.S., 403 F.3d 844, 846 (7th Cir. 2005), so “[a] litigant gets to argue ineffective assistance.. .just
once.” U.S. v. Flores, 739 F.3d 337, 34 (7th Cir. 2013), and with that being the case, if Miller

16

chose to raise any claims of IAC on direct appeal, he would “relinquish any opportunity to
obtain relief on collateral review.” Id., at 342, in a 2255 motion (emphasis added).
Most importantly here, and the crux of Miller’s claim is grounded in how this court
“regularly ask counsel at oral argument whether the defendant is personally aware of the risk of
presenting an ineffective assistance argument on direct appeal and, if so, whether the defendant
really wants to take that risk." Flores, at 341—a case repeatedly cited by Miller, but ignored by
the district court when ruling on [his] 2255 motion, instead citing Garza v. Idaho, 139 S.Ct. 738,
746 (2019) and Jones v. Barnes, 463 U.S. 745, 751 (1983), which are inapposite to the facts of
Miller’s case.2
Miller asserts that this is precisely what occurred in the case at bar: a three judge panel of
the appellate court asked Kupsis during oral arguments, whether he advised Miller of the
;. -

really want[ed] to take that risk”. Id. See, U.S. v. Miller, Appeal No. 14-2779 (oral arguments).
Kupsis falsely responded to that direct inquiry by saying “Yes.” Id. Miller, by contrast, averre4
under the penalty of perjury in his §2255 motion, that he was not made aware of such
ramifications by Kupsis, with documentary evidence in support of his contentions. See, 2255
. j-

memo at 22-29; also see App. J various emails and letters.

.

In similar situations, several jurist of reason, in various different, but similar context,
;

have routinely found appellate attorneys ineffective for failing to properly advise defendants on
3 Inapposite because the Garza decision, in particular, deal with whether Roe v. Flores-0rtega's (528 U.S. 470
(2000)) presumption of prejudice, in relation to an attorney's failure to file a notice of appeal waiver—a legal
question that was answered in the affirmative. The outcome of the Garza case, based on the specific question
presented to the court, however, was made in the limited context of the attorney having discretion to choose
among arguments traditionally raised on direct appeal, those dealing with errors made during the course of the
trial, plea and sentencing phases of the proceedings. Garza, 139 S.Ct. at 747. By contrast, this court has carved out
an exception that that generally accepted principle of law when it comes to the defendant's attorney attempting
to raise IAC claims on direct appeal, to wit: pursuant to U.S. v.. Flores, 739 F.3d 337 (7th Cir. 2013), counsel must
consult with the defendant concerning the ramifications of such a maneuver and ask the defendant if he really.
- wants to move forward with raising any IAC claims on direct appeal—a real tangible risk this court has repeatedly
emphasized over and over again. See e.g., U.S. v. Miller, 327 F.3d 598, 602 (7thc Cir. 2005); Harris v. U.S. 366 F.3d
593, 595 (7th Cir. 2004); U.S. v. Harris, 394 F.3d 543, 557-59 (7th Cir. 2005); Fuller v. U.S., 398 F.3d 644, 649 (7th Cir.
2005).

17

procedural issues that later had an adverse effect on the defendants securing habeas corpus relief
from their convictions. See e.g. U.S. v. rel Brumley v. Godinez, 1995 U.S. Dist. LEXIS 8725
(N.D. Ill 1995) (failure to advise concerning right to habeas corpus); U.S. v. Johnson, 308 Fed.
Appx. 768, 769 (5th Cir. 2009) (failure to advise concerning right to file a writ of cert); Gunner v.
Welch, 749 F.3 d 511 (6th Cir. 2014) (failure to advise on dime limit to file a habeas corpus
petition). For this reason, alone, Miller has established a showing of a substantial denial of a
constitutional right, as contemplated by 28 U.S.C. 2253(c), in that Ms claim that counsel was
ineffective for failing to advise him of the ramifications of proceeding with any claims of IAC on
appeal is an “issue debatable among jurist of reason.” See, Miller-El v. Cockrell, 537 U.S. 322,
335-36 (2003).
The district court and Seventh Circuit, by declining to issue a CO A on this debatable
claim, failed to recognize that Miller need ndfestablish that he’d win oil the merits of his claimon appeal. See, Buckv. Davis, 137 S.Ct. 759, 773 (2017) (clarifying that “The COA inquiry, we
have emphasized, is not coextensive with a merits analysis. At the COA stage, the only question
is whether the applicant has shown that “jurist of reason could disagree with the district court’s
‘ '- V

resolution of his constitutional claims or that jurist could conclude the issue presented are
adequate to deserve encouragement to proceed further.”); Id. At 773 (stating, “[A] court of
appeals should limit its examination [at the COA stage] to a threshold inquiry into the underlying
merit of [the] claims”, and ask “only if the district court’s decision was debatable” (quoting
Miller-El, 537 U.S. at 327)); Id at 774 (stating,.“[A] claim can be debatable even though.every
jurist of reason might agree, after the COA has been granted and the case has received full
consideration, that petitioner will not prevail.” (quoting Miller-El, 537 U.S. at 328)). Rather, the
decisions in U.S: v. rel Brumley, supra, U.S. v. Johnson, supra and Gunner v. Welch, themselves,
establish that Miller’s failure-to-advise claim is an issue that could be resolved differently by
jurist of reason. But there’s more.

18

Miller argued that he was “prejudiced” by Kupsis’s omission in this regard, Strickland v.
Washington, 466 U.S. at 691 (1984), because, had he been put on notice of the ramifications of
proceeding on appeal with any claims of IAC;, he would have categorically chose to preserve his
right to bring all of his IAC claims in his §2255. motion, because the record was not developed
enough for Miller to have raised several claims, that he raised in his §2255 motion, on direct
appeal.Now, as a result of Kupsis’s material omission on this regard, the district court has found
that the four claims in relation to trial counsel’s ineffectiveness, during the pre-trial and trial
stages of the proceedings, are .procedurally baited from being raised in §2255 proceedings (See
App. B, pg. 17, district court order), although the record was not properly developed for those
claims to be raised on direct appeal,
vt:-..A:bsucE,Tthe^‘Qmc&mefr>fr[)mil^
Id. At 694, had Kupsis properly advised Miller of the legal formalities associated with moving
forward on appeal with any claims of IAC pursuant to controlling Seventh Circuit case law
i. ; ■ ■

precedent: Miller would have told -Kupsis to preserve his right so as to bring all of his IAC
claims in the §2255 proceedings, thus, preventing the district court from denying Miller relief on
any of those grounds for relief, without being in a position to consider all of Miller’s claims at
once, the “cumulative effect” of any errors committed by trial counsel. Malone v. Walls, 538.
F.3d 744, 762 (7* Cir. 2008). And most importantly, prevented the district court from finding
that Miller’s four claims against Tavitas are “procedurally barred”. App, B, pg. 9.
Furthermore, pursuant to U.S. v. rel Brumley, supra, U.S. v. Johnson, supra and Gunner v.
Welch, jurist of reason could debate the correctness of the district court’s procedural ruling in

4 Coined as the failure to-advise claims and independent record claims in Miller's 2255 motion. The claims are
distinguished, one set of claims from the other based onihe arguments where the record was not developed
enough to raise the claims of IAC on direct appeal (see 2255 at 23-27; The failure to advise claims) and where the
record was developed enough to raise IAC claims on direct appeal (22 2255 at 27-30 the independent record
claims) See COA at 31-33.

19

failing to conduct an evidentiary hearing on this material issue. This is so because the district
court failed to resolve the material dispute between Kupsis’s allegations at oral arguments that he
extended Miller advice surrounding the ramifications of moving forward with any 1AC claims on
direct appeal, then asked Miller whether he wanted to raise the said claims on direct appeal:
compared to Miller’s sworn allegations in his §2255 motion, pgs. 22-30, that he (Kupsis) did not,
with evidence in support of those claims, App. J, (emails and letters). Controlling precedent in
this court dictates that it?s not enough for the district court to automatically accept and believe
Kupsis’s oral argument contentions over Miller’s sworn allegations in his §2255—especially
when Miller has presented documentary evidence in support of his contentions that Kupsis never
extended him such advice. See 3/16/15 email, App. J. To the contrary, pursuant to this court’s
decision in Taylor v. U.S. , 287 F.3d 658, 660 (7th Cir. 2002), jurist of reason would agree that the
...... district court proeedurally erred in failing to conduct an evidentiary hearing to resolve this
material dispute in the record. 287 F.3d at 660 (stating that, “if the record on a motion to vacate
contains an evidentiary conflict on a material issue of fact, a judge must hold an evidentiary
hearing to decide who is telling the truth—it is not sound to say that, in every conflict between a
movant and his attorney, the attorney must be believed.”); see also, Bruce v. U.S., 256 F.3d 592,
598 (7th Cir. 2002) (stating, “District court must;conduct and evidentiary hearing in a §2255
proceeding only when the allegations raised in the motion, if true, would entitle petitioner to
relief’).
Finally, the importance of a decision issued by this Court, one way or another, does not
turn on whether Miller, himself, stands in the limelight of public recognition or in the shadows of
anonymity. Rather, the significance of the outcome of this case rests on the procedural impact
that, a determination and clarification of this cotirt is likely to have on the future course of pro-se
litigants in the same position as Miller, and hence, on the lives of countless others.

20

1
; r.

Imagine, for example, a judicial world where attorneys, at least those who practice law in
front of the Seventh Circuit, knows, pursuant to U.S. v. Miller, Appeal No: 14-2779, that their
free to mislead the appellate court, with impunity, during oral arguments,, in reference to whether
they actually consulted with their clients about the adverse ramifications of raising any claims of
. IAC on direct appeal. The content of the Pandora’s box, released upon the substantive and
procedural rights of criminal defendant’s right to file §2255 motions challenging their attorney’s
ineffectiveness, would be earth shattering. By no more than a unilateral stroke of the pen, on
appeal, without a defendant’s consent, and without any change in law implemented by
Congress—direct appeal attorneys would essentially be granted the authority to suspend a federal
criminal defendant’s right to [the modified] Great Writ [i.e., §2255], with no other recourse for
the defendant to raise collateral attacks to their convictions and sentences outside of presenting
v,-. --'"T

decision made retroactively applicable on collateral review pursuant to 28 U.S.G. §2255(h).
In short, when considered from this perspective, the jurist of reason could conclude that
■ *. :i

the issue presented instantly, both substantively and procedurally, are “adequate to deserve
encouragement to proceed further.” Miller-El, 537 U.S. 731, this question deserves this court’s
attention .and clarification as the district court believes that it is the attorney’s choice whether to
raise IAC claims on direct appeal and not the defendant’s and counsel does not need to consult
with the defendant regardless of the adverse ramifications on procedural issues that may later
prevent the defendant from securing habeas corpus relief from their conviction.
In other words, does an attorney have the right, to raise IAC claims on direct appeal
without advising his client of the adverse ramifications of raising those claims at that time,
thereby sabotaging the defendant’s opportunity to raise any IAC claims on collateral review?
And does this choice to raise IAC claims on direct appeal belong to the client pursuant to
. Peoples v. U.S. 403 F.3d 844, 846 (7th Cir. 2005) and U.S. v. Flores, 739 F.3d 337, 341 (7th Cir.

21

2013), or to the attorney pursuant to Garza v. Idaho, 139 S.Ct 738, 746 (2019) as the district
court believes.

'

B.
DOES THE SEVENTH CIRCUIT’S DENIAL OF MILLER’S REQUEST FOR A COA,
GROUNDED IN MILLER’S CONTENTIONS THAT THE PROSECUTION FAILED TO
TIMELY DISCLOSE ITS USE OF FABRICATED EVIDENCE IN SEARCH AND
ARREST WARRANTS, CONSTITUTE AN ISSUE DEBATABLE AMONG JURIST OF
REASON PURSUANT TO SLACK V. MCDANIELS, THE SUBSTANTIAL DENIAL OF
A CONSTITUTIONAL RIGHT, AND MOST IMPORTANTLY, DOES THIS DECISION
CONFLICT WITH THIS COURT’S DECISION IN BRADY V. MARYLAND, SO AS TO
WARRANT THE GRANT OF CERTIORARI BY THIS COURT UNDER SUPREME
COURT RULE 10(C)?

(I). Standard of Review.
The law requires the prosecution to produce Brady material whether or not the defendant
requests any such evidence. Stickler x. Green, 527 U,.S. 263 (1999). More specifically, due........
process imposes an “inescapable” duty on the prosecutor “to disclose the known, favorable
' •

.

evidence rising to a material level of importance.” Kyles v. Whitely, 514 U.S. 438 (2000).
<1:

Favorable evidence includes both exculpatory and impeachment material that is relevant to either
guilt or pmiisliment. Bagley v. U.S., 473 U.S. 674-76 (1985).
Intricately related to this legal inquiry is the fact that a prosecutor will be held responsible
for the conduct (and misconduct) committed by members of the “prosecutor’s team”. The tenn
“prosecutor’s team” has been broadly construed, and it includes both investigative and
prosecutorial personnel. U.S. v. Morris, 80 F.3d 1151,1169 (7th Cir. 1996); U.S. v. Zuno-Arce,
44 F.3d 1420,1427 (9th Cir. 1995) (the “prosecutor is deemed to have knowledge of and access
to anything in the custody or control of any federal agency participating in the same investigation
of the defendant.”).
./•
*:

‘T

22

Members of the prosecutor’s team may Include testifying police officers and federal
agents who submit to the direction of the prosecutor and aid die government in its investigation.
U.S. v. Linder, 2013 U.S. Disk LEXIS 29641 aL 109 (N.D. Ill (2013).

.

For example, in U.S. v. Wilson, 237 F.3d 827, 832 (7th Cir. 2001), the Seventh Circuit
held that members of the Marshals service discover any information that might plausibly be
helpful to the defense, the Marshals Service becomes a part of die prosecutor’s team and is
acting as an ann of die government. Id. 832.
Keeping these legal principles in liiind, a Brady violation has three elements. Stickler,
527 U.S. 281-82. First, diere must be evidence that is favorable to the defense either because it’s
exculpatory or impeaching. Id. At 281-82. Secondly, the government must have willingly or in
advertently failed to produce the evidence. Id. Thirdly, the suppression must have prejudiced the
.defendant. Id,
— jz..

(ii). Discussion
Here, the record clearly reflects that Miller requested all Brady and Jencks material, and
that the government purportedly handed it all over to the defense. Crim. Doc. # 46. But Agent
Peasley—who was the lead case agent, worked closely with the prosecutor, sat at the table with
the prosecutor during trial and whose testimony made up one fourth of the trial transcript—a
member of the “prosecutor’s team”, failed to disclose the fact .that he fabricated the information
about HIDTA’s handling of the AMTECH evidence and identification of the license plate
numbers, including Detective Detterline’s affidavit (App. C), his (Agent Peasley) search warrant
affidavit (App. D) Iris (Agent Peasley) arrest warrant (App. E) and his (Agent Peasley) grand
jury testimony (App. F), information that was surely “impeaching” and “material” to the
outcome, of not just the trial, but also, three pre-trial motions Miller could have filed (elaborated
upon in the next claim) challenging evidence presented by the government in its case: a motion
to dismiss the indictment; a motion to suppress Miller’s alleged confession based on the

23

(■

impermissible warrantless arrest executed against him; and a motion to suppress his alleged
confession, under Franks v. Delaware, based on materially false statements made in the .
subsequent arrest warrant affidavit.
. v .

Furthermore, intricately.related to Peasley’s failure to disclose the material evidence to
i.

-

Miller concerning the HIDTA fabrication is Peasley’s failure to transcribe and/or disclose the
two required FBI reports pertaining to his handling of the AMTECH evidence.
More specifically, pursuant to Section 3.3.5 of the FBI policy guide, the FBI personnel
“must”5 document in a report “all reviews and searches of Digital Evidence (“DE”) from the
point of the receipt of DE through completion of the search...” and establisli&s how “[t]he
-• 1

•

_

documentation must be serialized [in the report] to the investigation file”. The said policy states,
that “such documentation should identity, at a iminium, the general nature and manner in winch
the search of the media-was conducted, major steps taken during the search^ and forensic tools
. employed during the search.” App. M.
In another section of that same policy, 3.3.5.2, it requires the agent handling the DE to
■ V”!

formulate a “DEtx Report” (Digital Evidence Technician’s Report) which is described as a
“factual report that details who performed the work, when it was performed, what was reviewed
and found, and where it was found. See App. M, FBI Policy.
r

Miller asserts that these two reports were not created or intentionally not turned over, we
now know, because Peasley never turned the AMTECH evidence over to HIDTA—so Peasley
had a reason not to turn over the reports. Miller, furthermore assets that, in light of the fact that
Peasley is a member of the “prosecutor’s team”; and the release of the FBI reports (via
discovery) was necessary for Miller’s attorneys'to review the chain of custody prior to trial so as
to be in a position to formulate a defense against the government’s case... Failure on the part of
5 The FBI policy's use of the mandatory term "must" dictates that Peasley had no discretion in whether to follow
the policy. See e.g. Hewitt v. Helms, 459 U.S. 460 (1983) {stating that statute or regulation must use language of an
unmistakably mandatory character requiring that certain procedures... "must" be employed does not specify
•v
substantive predicates)
24

Peasley and his FBI constituents to transcribe and disclose the report and chain of custody
documentation is a Brady violation, in and of itself.
This is so because Peaslcy’s failure to adhere to FBI policy directive 3.3.5 and 3.3.5.2 of
the FBI Policy manual, violates Miller’s due prbeess rights under the Accardi doctrine. See
Accardi v. Shaughnessy, 347 U.S. 260 (1954) (holding that “agencies may not violate their own
rules and regulations to the prejudice of others.”)Miller, furthermore, needed access to the. said reports to be in a position to know whether
HIDTA ever handled the AMTECH evidence in any context. Because, (if not), if HIDTA never
handled the AMTECH evidence—and it did not, See FOIA response, App. H-I, K-L—again,
Miller would have been in a position to file a pre-trial motion to dismiss the indictment based up
on the perjured testimony Peasley provided to the grand jury on this issue. (App. F. pg. 13-14).
Thus;

-V—■

gfengr^A^B^^ii^p^Peasle^STeateiori.^l fiiluretojthnely—

disclose his fabrication about the HIDTA identification, transcribe and turn oyer the two FBI
reports, are surely “favorable” and “exculpatofy”.
Second, the record clearly reflects that Peasley, as part of the ^prosecutor’s team”
“willfully” failed to release the said information about the fabrication of the HIDTA
identification and the said FBI reports as part of the pre-trial discovery under Brady. Rather, the
only evidence released prior to trial on this subject is Peasley’s affidavit and the working order.
Consequently, based upon the fact that the government, via Peasley, had a duty to disclose its use
of the said fabricated information and reports in time for the defense to make use of it but did
not... Miller has satisfied the second “suppression” prong of the Brady inquiry.

■M
6 FBI Policy, Section 1.2 "Background, pg. 1" states "All personnel that encounter DE (Digital Evidence) must
understand how to properly handle, review and process DE to avoid damaging the integrity of the evidence or
violating the constitutional rights of a person during thexourse of an investigation", (emphasis added). The FBI
policy, itself, thus contemplates protecting a criminal defendant's constitutional rights by complying with the
regulations set forth therein. App. M. (Policy Statement 8.1).
25

Finally, to find prejudice under Brady, it is not necessary to find that the jury verdict
would have come out different Kyle, 515 U.S. at 434. In suffices that there be “a reasonable
probability of a different result” as to guilt. Id. Prejudice exist “when the government's
evidentiary suppression undermines confidence in the outcome of the trial.” Id.
Here, the government’s failure to release the said fabricated information and reports via
Peasley was “material” to the outcome of Miller’s case in (at least) two different ways. First, the
release of the said infonnation and reports would have put Miller on notice that HIDTA never
dealt with the AMTECH evidence in any context. Tavitas, thus, would have been in a position to
I

emphatically object to the admissibility of the AMTECH evidence not only on the grounds as
being in violation of Fed. R. Evi. Rule 901 and.void of a proper chain of custody.. .but also, as
being fraudulent representations to die court, in that, according to representatives of HIDTA,
they never dealt with any AMTECH evidence handed over to them by the FBI concerning
Miller’s case. (App. H).
Keeping these facts in mind, had Tavitas been in a position to move to have the
AMTECH evidence precluded from being admitted into evidence from a review of the said
reports, Miller would have been successful in eliminating any physical evidence the government
would have had that tied him to the bank robbery, via Miller’s truck allegedly being on the scene
of the crime. As such, since the focus of the “prejudice” prong of a Brady inquiry is on the
“potential impact that the undisclosed evidence might have had on the fairness of the
proceedings,” Kyle, 115 S.Ct. 1566, rather than on the overall strength of the government’s case,
the court, in light of the fact that the jury was exposed to inadmissible evidence as a result of the.
government’s failure to disclose the fabricated information and the said FBI reports, cannot be
assured as to whether Miller received a trial with a “verdict worthy of confidence.” Kyle, 115
S.Ct. 1566.

■•36

Second, liad the FBI reports and chain of custody been released prior to trial, Tavitas
could have been in a position to move to have the indictment lodged against him, dismissed on
the grounds that any testimony that Pcaslcy gave at the grand jury proceedings concerning the
A’

HIDTA identification was perjured.
More specifically, at pages 13-14 of the grand jury proceedings, Peasley testified that the
AMTECH evidence was sent off to HIDTA for enhancement, for the purposes of putting him in
a position to identify the license plate number on the 1998 Ford Explorer. See App. F. pg. 13-14.
However, as the FOIA response from HIDTA reveals, App. H-I, K-L, this said testimony of
Peasley was perjured in violation of Miller’s due process right to a fair trial. Add this perjured
testimony in with the fact that (a) Peasley alsd presented false testimony at the grand jury
proceedings about Tauber identifying Miller as the bank robber (because she did not) and (b)

Peasley admitting at the grand jury proceedings that Hoffman never even knew.that the bank was
r~:-=tr::rrrr—r

being robbed until after the robbery was over. See App. F. pg. 5. And collectively, had Tavitas
had access to the said information to know that Peasley never forwarded the AMTECH evidence
to HIDTA for enhancement, he would have been position to move to have the indictment
dismissed based upon the fact that, absent any existence of the HIDTA identification and absent
any identification by Tauber and Hoffman... Tire grand jury would not have been in a position to
find probable cause that Miller violated 18 U.S.C. 2113. Stated another way: Peasley’s perjured
testimony in relation to the HIDTA identification and Tauber (that the prosecution knew or
should have known was perjured) “substantially influenced the grand jury’ s decision to indict.”
See, US. v. Vincent, 416 F.3d 593, 600 (7th Cir; 2005), to the point that Miller was “prejudiced”
by the presentation of that said evidence.” Id.
A jurist of reason could debate, consequently, whether Miller established that he was
“prejudiced” under the third prong of the Brady analysis, in that the government violated his due
process right to a fair trial by refusing to turn over or disclose the said information via Peasley,

27

and the true reports required by FBI protocol and policy, including the chain of custody of the
AM-TECH evidence. This court should thus grant certiorari to address the Seventh Circuit’s
decision to the contrary.
C.
DOES THE SEVENTH CIRCUIT’S DENIAL OF MILLER’S REQUEST FOR A COA
ON TWO SEPARATE PRE-TRIAL, 4th AND 5th AMENDMENT IAC ISSUES—ONE
CITING BROWN V. ILLINOIS, 422 U.S. 590 (1975), THE OTHER, FRANKS V.
DELAWARE, 438 U.S., 154 (1978)—CONSTITUTE DECISIONS DEBATABLE AMONG
JURIST OF REASON PURSUANT TO BUCK V. DAVIS, 137 S.CT 759 (2017) AND
MOREOVER SUBSTANTIALLY CONFLICT WITH THIS COURT’S DECISION IN
KIMMELMAN V. MORRISON, 477 U.S., 365 (1986) SO AS TO WARRANT THE
GRANT OF CERTIORARI BY THIS COURT UNDER SUPREME COURT RULE 10(C),
PARTICULARLY WHEN THE INFORMATION UTILIZED IN THE SEARCH AND
ARREST WARRANT WERE DERIVED FROM UNDISCLOSED, FABRICATED
INFORMATION AND EVIDENCE?

(a). Brown v. Illinois claim
\r._r' * ■■■;:

r‘>

-J.

(i). Tavitas performance was deficient
In Kimmelman v. Monison, 477 U.S. 365 (1986), this Court held that counsel’s failure to
make a timely suppression motion was ineffective assistance where counsel had “neither
investigated, nor made a reasonable decision not to investigate, the State’s case through
discovery” prior to the petitioner’s trial on rape charges. Id. 385. The court explained in
Kimmelman “Where defense counsel’s failure to litigate a Fourth Amendment claim competently
is the principle allegation of ineffectiveness, the defendant must also prove that his Fourth
Amendment claim is meritorious and that there is a reasonable probability that the verdict would
have been different absent the excludable evidence hi order to demonstrate actual prejudice.”
Kimmelman, 477 U.S. at 375. To make this determination, the court must, of course, examine the
Fourth Amendment basis for the IAC claim. Id.?:
Against this backdrop, in a motion to suppress evidence seized pursuant to a violation of
the Fourth Amendment the allocution of the burden of proof depends upon whether or not a

28

• W*

warrant was issued. In federal courts, “if the search or seizure was effected pursuant to a warrant,
the defendant bears tire burden of proven its illegality; if the police acted without a warrant. The
prosecution bears the burden of establishing legality.” U.S. v. Longmire, 761 F.2 411, 417 (7*
Cir. 1985)
Here, the record irrefutable reflects that, at the time Peasley arrived at Miller’s residence,
he only had a search warrant for the vehicle (App. D), but did not have a warrant for Miller’s
arrest. See Trial Tran. 290-291, annexed hereto as Appendix N. Peasley, nevertheless, actually
“arrested” Miller, based upon his own testimony—and subsequent affidavit to the arrest warrant,
App. E; and, in doing so, admitted that Miller did not willingly submit to the authority of law
enforcement when being arrested. See Trial Tran. 316, App. N.
Miller was thus “arrested”—without a warrant—for the purposes of the Fourth
Amendment inquiry-—especially since, in this case, at least eight law enforcement officers
. arrived at his home guns drawn at the time of coming into contact with Miller, placing Miller in
handcuffs, and transporting him to the Lansing Police Department against his will. See .
California v. Hofari D, 499 U.S. 621 (1991) (An arrest, of course, is the archetypical “seizure” of
a person under the Fourth Amendment): Brendlm v. California, 551 U.S. 249 (2007) (“A person
is ‘seized’ when his or her freedom of movement is eliminated by intentionally applied physical
force or submission to assertion of authority .”).
Keeping these facts hi mind, one must make the determination whether Peasley had
probable, cause to execute that warrantless arrest of Miller. “The probable cause determination is
made at the moment the arrest is made. Maltbyy. Winston, 36 F.3d 557 (7th Cir. 1994). “Any
evidence, therefore, that came to light after the; arrest is not relevant to the probable cause
inquiry.” Id. (emphasis added). Police have probable cause to arrest a suspect if, at any time of
the arrest, the facts and circumstances within the officer’s knowledge are sufficient to warrant a
. prudent person of reasonable caution into believing that the suspect has committed an offense.

■29

Gonzales v. City ofElgin, 578 F.3d 526, 537 (7th Cir. 2009). “Whether the police acted on
probable cause is a determination based on the common-sense interpretation of a reasonable
police officer as to the totality of circumstances at the time of arrest.” U.S. v. Villegas, 495 F.3d
761, 770 (7th Cir. 2007).
Here, the information in Peasley’s possession at the time he went to Miller’s house in the
morning with a search warrant for a vehicle was not sufficient, as a matter of law, to establish
that probable cause existed to arrest Miller. Had attorney Tavitas properly investigated the
discovery materials handed over to him by the government, in conjunction with other relevant
information that was subsequently brought to his attention in the events leading up to trial...
Tavitas would have been able to establish the following facts at a pre-trial suppression hearing in
support of the fact that Peasley had no probably cause to “seize” and “arrest” Miller on the
morning of January 5,2012.
First, Agent Peasley never corresponded with anyone at HIDTA for the purposes of
getting the AMTECH surveillance video/photo enhanced. And, in fact, lied about the existence
of Kenneth Forysthe (HIDTA Technician) See, App. H-I, K-L. Thus, a simple investigation into
this matter would have yielded the same type of response Miller received from HIDTA through
his FOIA request—that HIDTA never handled or dealt with that evidence in any context; and,
since HIDTA never handled the AMTECH evidence, it could credibly be asserted (in a pre-trial
motion to suppress) that any AMTECH surveillance evidence and identification of Miller’s
.

"

■

license plate number in Peasley’s possession, allegedly connecting the license plate to Miller’s
truck, was inadmissible as matter of law to establish that Peasley had probable cause, in any
context, to arrest Miller (being that the HIDTA evidence was plainly fabricated), ■
Second, the bank teller Tauber, at the pre-trial conference between Tauber, the
government, and counsel for Miller, unequivocally laid to rest any assumptions that she

30

identified Miller as the bank robber. See pg. 5,fCrim. Doc. 28 Govt. Response to Miller’s motion
to deposition.
Third, prior trial, the second and only other teller in the bank, Hoffman—according to
Peasley’ s testimony at the grand jury—said that she could not identify the bank robber because,
at the time the bank was being robbed, she did not even know that a robbery was occurring. See
App. F, pg. 5-6, grand jury testimony. Hoffman furthennore, in a 302 drafted by law
enforcement, unequivocally stated that she could not identify the bank robber. App. G.
Thus, had Tavitas eliminated, in a pre-trial motion to suppress the AMTECH surveillance
evidence, and both eyewitnesses to the bank robbery, as being evidence in support of probable
cause that Miller committed the bank robbery... The government would have bore a heavy
burden in proving that there was any information in Peasley’s possession in support of his
" ~ position that he had probable dause to arrest Mrlierat that particular time.Tn sum;-viewed'from
this perspective, Peasley had nothing: No evidence to tie Miller’s vehicle to the crime. No
r

eyewitness to place Miller at the scene of the crime. Only a search warrant for the 1998 Ford
Explorer—that was invalid.
As such, Peasley had no probable cause to arrest Miller—in, nor outside of his house.
Keeping these facts in mind, and this court, in Brown v. Illinois, 422 U.S. 590 (1975), held that a
confession following an illegal arrest must be excluded from evidence unless it’s sufficiently
attenuated to purge the primary taint. The threshold requirement for admissibility is that the
confession was voluntary; if so, then the court considers the temporal proximity of the illegal
conduct to the statements, the presence of any intervening circumstances and most importantly,
the purpose and flagrancy of police misconduct. U.S. v. Reed, 349 F.3d 457, 463 (7th Cir. 2003)
(Citing, Brown, 422 U.S. at 603-04).
Here, as Miller has asserted from the outset of the judicial proceedings he never, ever,

i=

confessed to the bank robbery, or the vehicle in the video as belonging to him in any context.

31

'•

-

Rather, if anything, Peasley—who has a clear track record of intentionally mischaracterizing
:

.

words, falsifying evidence, committing peijury, and participating in egregious conduct, in
general, inserted imaginary facts into his police report in an effort to generate probable cause to
arrest Miller, which is why he sought the arrest warrant after the fact. See App.E, January 6,
2013 arrest warrant, with complaint and affidavit annexed thereto, describing, inter alia, Miller’s
alleged confession as one of the reasons for probable cause for his arrest.
First, Peasley admits that Miller did not “willingly” come to the police department (Trial.
Tran. 316). Here, Peasley is essentially admitting to tire fact that, when Miller finally came to the
door of the house to see what law enforcement Wanted with him, Peasley asked him to come to
the police department for questioning, Miller asked him why he wanted him to come to the
police department; and was he (Miller) under arrest. Peasley said no. From there, Miller told
-Pft^sTp.vrthat-slnce-hc’s-not-Hnder-arrest- t-hcn-hc-s-nQt going-anvwhereand-t-hat-thev- CQU-ld- talk- right there at the house. From that point on, Peasley specifically told Miller to cuff up because he
was now under arrest. This is what Peasley meant, in his own words, when he said Miller did not
go “Willingly.” (Trial. Tran. 316).
Later in Peasley’s testimony, however, he asserts that he never told Miller he was under
arrest; and that Miller “didn’t ask.” (Trial. Tram 316). Keeping these facts in mind... If Miller
did not “willingly” go to the police station, according to Peasley. „ The question must be asked:
Why wouldn’t Miller ask if he was under arrest? Furthennore, if Miller did not willingly go
down to the police station and, since Peasley never told him what the interview was about, what
would, all, of a sudden, possess Miller to confess to the bank robbery? Confess, then, all of a
sudden, make more “offhand” statements. (Trial. Tran. 270-71). Just relying upon those portions
of the trial record and Peasley’s (and Officer Gemeinhart’s) testimony on these points were
patently unbelievable.

'32

=•;

Finally, the Lansing Police Department is only ten minutes away from Miller’s residence.
Miller was arrested and taken into custody by law enforcement at 6:00, no later than 7:00 in the
morning. This fact naturally begs the question: Why would it take almost 5-6 hours for Miller to
, sign a Miranda warning? What happened between the time Miller was taken into custody and the
Miranda warning being given at 11:46 am? In sum, Miller’s alleged confession (that did not
happen), after he was forcefully arrested and taken into custody, was not “voluntary.” Reed, 349
F.3d 457, 463 (7th Cir. 2003).
On a similar note, there is no bright-line test for temporal proximity. The Seventh Circuit
has suppressed statements made two and six hours after arrest, but found admissible a confession
-I '

'

made only 45 minutes after an illegal arrest. Reed, 349 F.3d 464, 65 (collecting cases).
Accordingly, the Seventh Circuit has suggested that the court consider temporal proximity factor
, , in conjunction with the presence of intervemng circumstances; Id At 464;. The.type, of . .
intervening events that may serve to attenuate official misconduct include subsequent release
.\

from custody, arraignment before a magistrate judge, discussion with counsel, the discovery of
other incriminating evidence implicating the defendant and causing defendant to confess
spontaneously, the defendant’s self-transport from the scene of the illegal arrest to another
location and proper arrest on unrelated charges following initial arrest. Id. In the present case,
even without there being evidence in the record as to the tune span between when Miller was
arrested by Peasley, none of the intervening events described by the Seventh circuit in Reed
' 'l

apply to Miller’s case situation. As such, on the temporal proximity factor, instantly, the record'
does not reflect that the time span between the time Miller allegedly confess was sufficiently
attenuated to purge the primary taint of his illegal arrest. Reed, supra.
As for the final Brown factor, the purpose and flagrancy of the official misconduct:
Courts have previously found Fourth Amendment violations flagrant and purposeful where (1)
the impropriety of the misconduct was obvious ’or the officer knew, at the time, that his conduct

33

was likely unconstitutional but engaged in it nevertheless; (2) the misconduct was investigatory
in design and purpose and executed in the hopes that something might turn up. U.S. v. Carter,
573 F.3d 418,425 (7th Cir. 2009). Where the police erred, but the record does not support an
inference of bad faith, the violation will generally be deemed non-flagrant. Id. At 425-26.
Here, the record could not be any more pellucid in relation to the fact that Peasley “knew,
at the time, that his conduct was likely unconstitutional but engaged hi it nevertheless.” Id. This
is unambiguously so, in light of the fact that he; showed up to Miller’s house with a search
warrantfor the 1998 explorer. Not an arrest warrant for Miller. Again, the arrest warrantutilizing Miller’s fabricated confession therein—did not come until after the fact. Peasley,
therefore, knew at that particular time he had. absolutely no probable cause to arrest Miller for the
bank robbery offense. He, nevertheless, did so against Miller’s “will” (Trial. Tran. 316), then,
endeavored, in his own words, to not let Millefknow that he was under arrest(Id) until he was in
position to gather enough information to create'probable cause to arrest Miller. After illegally
arresting Miller, Peasley, in his own words, laid out the intent of his interview with Miller, when
he stated: “My intent was to ask Miller if he robbed the bank” (Trial. Tran. 292). Clearly,
Peasley sought to exploit the illegal arrest of Miller, in every way imaginable. The record, thus,
also irrefutable reflects that Peasley’s “misconduct was investigatory in design and purpose and
executed in the hopes that something might turn up.” U.S. v. Carter, 573 F.3d 418, 425 (7th Cir.
2009).
In sum, relying upon the relevant factors set forth in Brown and its progeny, there was no
sufficient attenuation to purge the primary taint of Miller’s illegal arrest. His fabricated
confession, therefore, should have and would have been suppressed had Tavitas properly
’-'i

investigated Miller’s discovery, then, filed a timely pre-trial motion to suppress the evidence.

34

.

(ii). Miller was prejudiced by Tavitas’s conduct
As a preliminary matter, Miller must again point out the fact that, if law enforcement
authorities act without a warrant in executing an arrest—as was the case, instantly—“the
prosecution bears the burden of establishing legality.” U.S. v. Longmire, 761 F.2d 411,417 (7th
1i

‘

Cir. 1985). Keeping this fundamental principle ;of law in mind, Tavitas’s outright failure to file
the said pre-trial motion in tire instant case, a jurist of reason would agree, was deficient
performance that prejudiced Miller, in that Tavitas has effectively shifted the burden of proof
over to Miller to prove that his constitutional rights were violated. See e.g., Malave v. Smith, 559
F.Supp. 2d 264 (2nd Cir. 2008) (in context of a habeas corpus case, stating that, “[Tjhis shift in
the burden of proof may be problematic... For example, if there were evidence that Malave’s
statement was voluntary, the prosecution could not possible have met its burden at a suppression
hearing; in such a case, one might well ask why Malave should shoulder the burden of proving
that the statement was involuntary on habeas review simply because his counsel misunderstood
the law.”); Id., at 559 F.Supp. 2d 277 n-,3 (stating that “whether an outcome determinative shift in
the burden of proof due to counsel’s ineffectiveness might itself constitute prejudice under
Strickland is an intriguing question...”); Huffman v. U.S., 2010 U.S. Dist. LEXIS 135872 (4th
Cir. 2010) (stating that the burden of proof is upon the petitioner to establish a preponderance of
the evidence a claim upon which he seeks to have the judgement vacated in a 28 U.S.C. 2255
proceeding.”).

'

Consequently, for that reason, almost alBhe, jurist of reason could, at least, debate
whether Miller was prejudiced by Tavitas’s omissions. But that’s not it.
For the reasons set out above, in the “deficient performance” section of this claim,
Miller’s Fourth Amendment claim was meritorious and would have been successful, for the
purposes of Kimmelman and its progeny. Miller was thus prejudiced in that regard by Tavitas’s
omissions. He was furthermore prejudiced because, absent Miller’s (fabricated) confession being

35

submitted as evidence by the government... The Seventh Circuit, in affirming Miller’s
conviction, would not have been in a position tp rely so heavily upon Miller’s alleged confession
to arrive at the conclusion that any errors raised by Miller on direct appeal would not have
“affected the judgement of the jury”, were “hamiless” or otherwise “negligible.” Miller, Id. At
627-631.
This court should, this, grant Certiorari on this issue, so as to assure that the Seventh
Circuit’s decisions remain in uniforniity with the decisions of this court in Kimmelman v.
Morrison and its progeny.
(b). Franks v. Delaware claim
(i). Counsel’s performance was deficient
To prevail on an IAC claim premised on counsel’s failure to object to the admission of
evidence at trial, a defendant must establish that die evidence was, in fact. wrongfully admitted
for the purposes of establishing the “deficient” prong of the Strickland analysis. Kimmelman, All
U.S. 365.
Correspondingly, under Franks v. Delaware, 438 U.S. 154 (1975) a criminal defendant is
entitled to a pre-trial evidentiary hearing if he can establish that law enforcement officers utilized
false information in a warrant affidavit. U.S. v. Hancock, 844 F.3d 702, 708 (7th Cir. 2016). The
criteria for being granted a Franks hearing requires that a defendant makes a substantial showing
that (1) the warrant affidavit contains false statements; (2) the false statements were made
intentionally or with the reckless disregard for the truth; and (3) the false statements were
material in the finding of probable cause. Hancock, supra, at 708.
Keeping these legal standards in mind, and counsel’s failure.to conduct an investigation
to discover the HIDTA fabrication, then failing to file a pre-trial motion for a Franks hearing
does not require much discussion.

36

This is so because the record clearly reflects that the information Peasley provided in his .
•'•r

search warant affidavit (App. D), arrest warrant affidavit (App. E), working order (App.G) and
Detterline’s search warrant affidavit (App.C) about that transfer of the AMTECH evidence to .
HIDTA (to Ken Forsythe, in particular) for the purposes of enhancing the surveillance footage,
were (1) false statements, see FOIA responses, App. H-I, K-L; (2) false statements made with a
reckless disregard for the truth; and (3) were false statements material in finding probable cause
because, without being able to directly tie Miller’s vehicle to the bank robbery offense via the
alleged license plate number, Peasley, first of all, would not have been able to obtain probable
cause and falsely identify Miller as a suspect in the bank robbery, or obtain any warrants.

'

The false statements concerning the HIDTA identification in the search warrant affidavit,
App. D, thus, were material in the finding of probable cause. This is especially so when Peasley

m
made use of the same false information in Peasley’s subsequent arrest warrant affidavit (App-E),
working order (App.G), and grand jury testimony (App.F) surrounding the fabricated HIDTA
evidence,
• Absent the fabricated HIDTA allegations in all of Peasley’s affidavits—and had counsel
properly moved to suppress Miller’s fabricated "statement as fruits of the poisonous tree as
outlined in section C (i) herein—Peasley would have been deprived of any probable cause or
evidence to arrest Miller.
Had Tavitas properly investigated the facts of Miller’s case, then filed a pre-trial motion
under Franks v. Delaware, Miller would have been successful in getting any evidence derived
from Peasley’s search and arrest warrant suppressed—i.e. identification of Miller’s truck,
Miller’s alleged confession, and the HIDTA evidence.
i

A jurist of reason could consequently debate whether counsel’s performance was
deficient in this regard.

: 37

(ii). Miller was prejudiced by counsel’s omissions
For substantially the same reasons set forth above, jurist of reason could debate whether
Miller was “prejudiced” by counsel’s omissions in failing to investigate and file a pre-trial
motion under Franks. This is so because, had counsel done so, there’s a reasonable probability
that the outcome of the proceedings would have been different. Miller would have been
successful in getting his case dismissed or otherwise getting the most damaging pieces of
.evidence used against him at trial, suppressed, i.e. Millers truck being identified as the getaway
vehicle via the HIDTA identification and Miller’s alleged confession as fruits of the poisonous
tree.
This cotut should this grant certiorari so as to assure that die decisions of the Seventh
Circuit remain in uniformity with this court.
CONCLUSION
Based on the foregoing, Miller requests that this court grant his request for a writ of
certiorari.

/

Respectfully submitted,
\

VC
tdoseph Miller# 12481-424
Federal Correctional institution
PO BOX 5000
Greenville, IL 62246

38

